                 - - --_._--­ -
                                         AUG 10 2012
TO: 	         Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:          Stuart Wright
               Deputy Inspector General
                  for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Comparison ofFourth-Quarter 201 J Average Sales Prices
           and Average Manufacturer Prices: Impact 011 Aledicare Reimbursement/or
           Second Quarter 2012, OEI-03-12-00410


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OIG) to identify Medicare Part B prescription drugs with average sales prices (ASP)
that exceed average manufacturer prices (AMP) by at least 5 percent. This review estimated the
financial impact of lowering reimbursement amounts for drugs that met the 5-percent threshold
to 103 percent of the AMPs, and also examined the potential effect of a July 2012 proposed rule
that, among other things, specifies the circumstances under which the Centers for Medicare &
Medicaid Services (CMS) will make AMP-based price substitutions.

SUMMARY

To ensure that ASP-based reimbursement amounts do not result in excessive payments, Congress
mandated that OIG monitor ASPs by comparing them with AMPs and widely available market
prices and directed CMS to lower reimbursement for certain drugs based on OIG's findings.
Since the implementation of the ASP payment methodology in 2005, OIG has fulfilled its
responsibility by issuing 25 reports comparing ASPs and AMPs. However, CMS has yet to
lower reimbursement in response to OIG's findings and recommendations. This latest
comparison examines drugs that exceeded the 5-perccnt threshold based on either complete or
partial AMP data in the fourth quarter of 20 11 . Of the 383 drug codes with complete AMP data,
29 exceeded the 5-percent threshold. If reimbursement amounts for all 29 codes had been based
on 103 percent of the AMPs in the second quarter of 20 12, Medicare would have saved an
estimated $4.6 million in that quarter alone. Under CMS's proposed price substitution policy,
reimbursement amounts for 14 of the 29 drugs would have been reduced, saving an estimated
$4.2 million in the quarter. Of the 63 drug codes with partial AMP data, 10 exceeded the
5-percent threshold. CMS has expressed concern that partial AMP data may not adequately
reflect market trends and therefore will not apply its price substitution policy to drugs with



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 2 – Marilyn Tavenner


partial AMP data. However, we found that pricing comparisons for half of the 10 codes with
partial AMP data seemed to accurately capture market trends; therefore, price reductions may be
appropriate in these cases. We could not perform pricing comparisons for an additional 48 drug
codes because none of the associated drug products had corresponding AMP data.
Manufacturers for 8 percent of the associated drug products had Medicaid drug rebate
agreements and were therefore generally required to submit AMPs.

BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs.1 If OIG finds that
the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), the Act states
that the Secretary of Health and Human Services (the Secretary) may disregard the ASP for the
drug when setting reimbursement amounts.2, 3 The Act further states that “… the Inspector
General shall inform the Secretary (at such times as the Secretary may specify to carry out this
subparagraph) and the Secretary shall, effective as of the next quarter, substitute for the amount
of payment … the lesser of (i) the widely available market price … (if any); or (ii) 103 percent of
the average manufacturer price….”4

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies to process and pay Medicare Part B claims, including
those for prescription drugs. To obtain reimbursement for covered outpatient prescription drugs,
health care providers submit claims to Medicare contractors using procedure codes. CMS
established the Healthcare Common Procedure Coding System (HCPCS) to provide a
standardized coding system for describing the specific items and services provided in the
delivery of health care. In the case of prescription drugs, each HCPCS code defines the drug
name and the amount of the drug represented by the HCPCS code but does not specify
manufacturer or package size information.

Medicare and its beneficiaries spent over $12 billion for Part B drugs in 2011.5 Although
Medicare paid for more than 500 outpatient prescription drug HCPCS codes that year, most of

1
  Section 1847A(d)(2)(B) of the Act. 

2
  Section 1847A(d)(3)(A) of the Act. 

3
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold percentage 

in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent. 

4
  Section 1847A(d)(3)(C) of the Act. 

5
  Medicare expenditures for Part B drugs in 2011 were calculated using CMS’s Part B Analytics and Reports (PBAR). 

The PBAR data for 2011 were 98-percent complete when the data were downloaded in May 2012.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 3 – Marilyn Tavenner


the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2011, 62 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only
13 of these codes representing the majority of total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs.6 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter.7 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program.8 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program.9, 10

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter.11 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Second-quarter 2012 Medicare payments for most covered drug codes were based on
fourth-quarter 2011 ASP submissions from manufacturers, which were volume weighted using
an equation that involves the following variables: the ASP for the 11-digit NDC as reported by
the manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the
number of billing units in the NDC as determined by CMS.12 The amount of the drug contained
in an NDC may differ from the amount of the drug specified by the HCPCS code that providers
use to bill Medicare. Therefore, the number of billing units in an NDC describes the number of
6
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP methodology.
7
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of 

2003, P.L. 108-173.

8
  Section 1847A(c)(3) of the Act. 

9
  Section 1847A(c)(2) of the Act. 

10
   Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer during the 

rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or governmental
entity within the United States, with certain exceptions. 

11
   Section 1927(b)(3) of the Act. 

12
 The equation that CMS currently uses to calculate volume-weighted ASPs is described in § 1847A(b)(6) of the

Act. It is also provided in Appendix A.




Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 4 – Marilyn Tavenner


HCPCS code units that are in that NDC. For instance, an NDC may contain 10 milliliters of
Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In
this case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
generally responsible for 20 percent of this amount in the form of coinsurance.

The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies.13 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs.14 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each quarter.15

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug and is reported for the lowest identifiable quantity of the drug (e.g.,
1 milliliter, one tablet, one capsule). By law, AMP is defined as the average price paid to the
manufacturer for the drug in the United States by (1) wholesalers for drugs distributed to retail
community pharmacies and (2) retail community pharmacies that purchase drugs directly from
the manufacturer.16, 17, 18

Penalties for Failure To Report Timely Drug Pricing Data
Pursuant to the Act, manufacturers that fail to provide ASP and AMP data on a timely basis may
be subject to civil money penalties and/or termination from the drug rebate program.19, 20
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred

13
   Sections 1927(a)(1) and (b)(1) of the Act. 

14
   Section 1927(b)(3) of the Act. 

15
   42 CFR § 447.510.

16
   Section 1927(k)(1) of the Act, as amended by § 2503 of the Patient Protection and Affordable Care Act, 

P.L. 111-148.
17
   Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an independent, chain, supermarket, or mass
merchandiser pharmacy that is licensed as a pharmacy by the State and that dispenses medications to the general public at
retail prices. Such term does not include a pharmacy that dispenses prescription medications to patients primarily through
the mail; nursing home, long-term-care, or hospital pharmacies; clinics; charitable or not-for-profit pharmacies; 

government pharmacies; or pharmacy benefit managers. 

18
   Prior to October 2010, the AMP was generally defined by statute to be the average price paid to the manufacturer for 

the drug in the United States by wholesalers for drugs distributed to the retail pharmacy class of trade. 

19
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act. 

20
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of 

§ 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 5 – Marilyn Tavenner


to OIG manufacturers that failed to submit timely ASPs and AMPs. In accordance with an
enforcement initiative announced in September 2010, OIG has begun imposing civil money
penalties on certain manufacturers that fail to report timely ASPs and/or AMPs.21

OIG’s Monitoring of ASPs and AMPs
To comply with its statutory mandate, OIG has issued 21 quarterly pricing comparisons since the
ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG has completed four annual overviews of ASPs and AMPs, which examined data
across all four quarters of 2007, 2008, 2009, and 2010, respectively.

OIG has consistently recommended that CMS develop a price substitution policy and lower the
reimbursement amounts for drugs that exceed the 5-percent threshold as directed by the Act.
Although CMS has yet to make any changes to Part B drug reimbursement as a result of OIG’s
studies, the agency published a proposed rule in July 2012 that, among other things, specifies the
circumstances under which AMP-based price substitutions will occur, effective
January 2013.22, 23

CMS’s Price Substitution Policy
According to its July 2012 proposed rule, CMS will substitute 103 percent of the AMP for the
ASP-based reimbursement amount when OIG identifies a HCPCS code that exceeds the
5-percent threshold in two consecutive quarters or three of four quarters.24 Because CMS
believes that comparisons based on partial AMP data may not adequately reflect market trends,
the proposed rule states that HCPCS codes exceeding the 5-percent threshold based on partial
AMP data will not be eligible for price substitution. The proposed rule additionally states that
price substitutions will take effect in the quarter after OIG shares the results of its most recent




21
   OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price Reporting Requirements,

September 2010. Available online at http://www.oig.hhs.gov. 

22
   77 Fed. Reg. 44722, 45057 (July 30, 2012). 

23
   This is the third time that CMS has pursued rulemaking on AMP-based price substitutions. In July 2010, CMS 

published a proposed rule that specified the circumstances under which price substitutions would occur, effective January

2011; however, the agency did not to finalize this proposed rule based, in part, on impending changes to the definition of 

AMP (75 Fed. Reg. 73170,73471 (Nov. 29, 2010)). In November 2011, CMS published a final rule that again specified 

circumstances under which price substitutions would occur (76 Fed. Reg. 73026, 73473 (Nov. 28, 2011)). Although that 

final rule took effect in January 2012, CMS did not implement that policy in light of concerns about drug shortages.

24
   77 Fed. Reg. 44722, 45057 (July 30, 2012). 



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 6 – Marilyn Tavenner


pricing comparison and remain in effect for one quarter.25, 26 Drugs identified by the Food and
Drug Administration (FDA) as being in short supply will not be eligible for price substitution.27
METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the fourth quarter of 2011,
which were used to establish Part B drug reimbursement for the second quarter of 2012. This
file also includes information that crosswalks NDCs to their corresponding HCPCS codes. Both
the ASP data and the crosswalk data were current as of March 23, 2012. We also obtained AMP
data from CMS for the fourth quarter of 2011, which were current as of April 10, 2012.

Analyzing ASP Data From the Fourth Quarter of 2011
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid. As of March 2012, CMS had established prices for
508 HCPCS codes based on the ASP reimbursement methodology mandated by the Act.28
Reimbursement amounts for the 508 HCPCS codes were based on ASP data for 3,144 NDCs.

Analyzing AMP Data From the Fourth Quarter of 2011
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

         (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
             every NDC that CMS used in its calculation of volume-weighted ASPs;

         (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
             some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

         (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
             the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, one tablet, one capsule). In contrast, the ASP

25
   After that one quarter, the reimbursement amount will be either 106 percent of the volume-weighted ASP for the
current quarter or, if the HCPCS code continues to meet CMS’s price substitution criteria, 103 percent of the
volume-weighted AMP for the current quarter.
26
   To prevent CMS’s policy from inadvertently raising the Medicare reimbursement amount, a price substitution will not
occur when the substituted amount is greater than the ASP-based payment amount calculated for the quarter in which the
price substitution would take effect. For example, if the AMP-based substitution amount were $5 and the ASP-based
reimbursement amount were $4 for the quarter in which the substitution would take place, CMS would not make the price
substitution.
27
   77 Fed. Reg. 44722, 45057 (July 30, 2012).
28
   Section 1847A(b)(6) of the Act.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 7 – Marilyn Tavenner


is reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters,
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, drug labels, Thomson Reuters’ Red Book, and the Food
and Drug Administration’s NDC directory.29 For certain NDCs, we were unable to identify the
amount of the drug reflected by the ASP or AMP and therefore could not calculate a converted
AMP. Because of these unsuccessful AMP conversions, 14 HCPCS codes were removed from
our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the
volume-weighted ASP for that same code. Appendix B provides a more detailed description of
the methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                                Number of            Number of
 Availability of AMP Data for HCPCS Codes
                                                                             HCPCS Codes                NDCs

 Complete AMP Data                                                                     383               1,724

 Partial AMP Data                                                                       63                708

 No AMP Data                                                                            48                199
Source: OIG analysis of fourth-quarter 2011 ASP and AMP data, 2012.


Comparing Fourth-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP Data
For each of the 383 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing unit information. According to our review, one of the
HCPCS codes that exceeded the threshold based on complete AMP data was associated with
questionable billing units. Because volume-weighted ASPs and AMPs are calculated using this

29
     We did not calculate converted AMPs for NDCs in the third group because they had no AMP data.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 8 – Marilyn Tavenner


billing unit information, we could not be certain that the results for this code were correct.
Therefore, we excluded this HCPCS code from our count of codes with complete AMP data that
exceeded the 5-percent threshold.




Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 9 – Marilyn Tavenner


For each of the remaining HCPCS codes that exceeded the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP.30 First, we calculated
103 percent of the volume-weighted AMP and subtracted this amount from the second-quarter
2012 reimbursement amount for the HCPCS code. To estimate the financial effect for the
second quarter of 2012, we then multiplied the difference by one-fourth of the number of
services that were allowed by Medicare for each HCPCS code in 2011, as reported in the
PBAR.31, 32

To determine which HCPCS codes would have been subject to CMS’s price substitution policy,
we identified codes with complete AMP data that met the 5-percent threshold in two consecutive
or three of four quarters and were not identified by FDA as being in short supply. We then
totaled the estimated fourth-quarter 2011 savings for that subset of codes.

Comparing Fourth-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP Data
For each of the 63 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing units. According to our review, three of the HCPCS
codes that exceeded the threshold based on partial AMP data were associated with questionable
billing units. Because volume-weighted ASPs and AMPs are calculated using this billing unit
information, we could not be certain that the results for these codes were correct. Therefore, we
excluded these HCPCS codes from our count of codes with partial AMP data that exceeded the
5-percent threshold.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold based on partial
AMP data, we determined whether missing AMPs unduly influenced the results of our pricing
comparison. As mentioned previously, the volume-weighted AMP for a HCPCS code with
partial AMP data is based on fewer NDCs than the volume-weighted ASP for that same code.
Therefore, there may be a disparity between the volume-weighted ASP and AMP that would not
exist if AMP data were available for the full set of NDCs. In other words, the volume-weighted
ASP for the HCPCS code could exceed the volume-weighted AMP by at least 5 percent only
because AMPs for certain NDCs were not represented.




30
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that exceed the 

5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the AMP. 

For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement 

amounts. If widely available market prices had been available for these drugs and lower than 103 percent of the AMP, the 

savings estimate presented in this report would have been greater.

31
   The PBAR data for 2011 were 98-percent complete when the data were downloaded in May 2012.

32
   This estimate assumes that the number of services allowed by Medicare in 2011 remained consistent from one quarter to 

the next and that there were no significant changes in utilization between 2011 and 2012.



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 10 – Marilyn Tavenner


CMS has expressed concern that partial AMP data may not adequately reflect market trends.33
Therefore, to identify HCPCS codes with partial AMP data that exceeded the 5-percent threshold
only because AMP data were missing, we reanalyzed pricing data after accounting for the
missing values. Specifically, we replaced each missing AMP with its corresponding ASP and
recalculated the volume-weighted AMPs using those imputed prices.34 We then compared those
new volume-weighted AMPs to the volume-weighted ASPs originally calculated by CMS.
If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the missing
AMPs were likely responsible for the HCPCS code initially exceeding the threshold, as opposed
to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely exceeded
the threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we also identified which of these
HCPCS codes met the threshold in two consecutive or three of four quarters.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We generally did not determine whether manufacturers provided
additional or revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 383 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
29 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
As mandated by the Act, OIG compared ASPs to AMPs to identify instances in which the ASP
for a particular drug exceeded the AMP by a threshold of 5 percent. In the fourth quarter of
2011, 29 of the 383 HCPCS codes with complete AMP data (8 percent) exceeded this 5-percent
threshold. Table 2 describes the extent to which ASPs exceeded AMPs for the 29 HCPCS codes.

33
   76 Fed. Reg. 73026, 73289 (Nov. 28, 2011).

34
   Although an NDC’s ASP is not usually the same as its AMP, ASPs in 2011 were within 3 percent of the AMPs at the 

median. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is represented in both 

the volume-weighted ASP and the volume-weighted AMP for the HCPCS code. 



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 11 – Marilyn Tavenner


For 14 of the codes, the volume-weighted ASP exceeded the volume-weighted AMP by more
than 20 percent. A list of all 29 HCPCS codes, including their descriptions and HCPCS dosage
amounts, is presented in Appendix C.

                        Table 2: Extent to Which ASPs Exceeded AMPs for
                            29 HCPCS Codes With Complete AMP Data
                               Percentage                           Number of Codes

                               5.00–9.99%                                           7
                               10.00–19.99%                                         8
                               20.00–29.99%                                         3
                               30.00–39.99%                                         3
                               40.00–49.99%                                         2
                               50.00–59.99%                                         0
                               60.00–69.99%                                         2
                               70.00–79.99%                                         0
                               80.00–89.99%                                         0
                               90.00–99.99%                                         0
                               100% and above                                       4
                                 Total                                             29
                              Source: OIG analysis of fourth-quarter 2011 ASP and AMP data, 2011.


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
exceeds the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
29 codes with complete AMP data had been based on 103 percent of the AMPs during the
second quarter of 2012, Medicare expenditures would have been reduced by an estimated
$4.6 million in that quarter alone.35

If CMS’s proposed price substitution policy had been in effect, reimbursement amounts for
almost half of the HCPCS codes (14 of 29) would have been reduced. These 14 HCPCS codes
had complete AMP data and met the 5-percent threshold in either two consecutive quarters or
three of four quarters (see Table 3).36 If reimbursement amounts for the 14 codes had been based
on 103 percent of the AMPs during the second quarter of 2012, Medicare expenditures would
have been reduced by an estimated $4.2 million. One of these HCPCS codes accounted for the
vast majority of the $4.2 million. If the reimbursement amount for HCPCS code J7620 had been
based on 103 percent of the AMP during the second quarter of 2012, Medicare expenditures
would have been reduced by an estimated $3.6 million.



35
   All savings estimates in this report assume that the number of services allowed by Medicare in 2011 remained
consistent from one quarter to the next and that there were no significant changes in utilization between 2011 and 2012.
36
   None of the drugs represented by the 14 HCPCS codes were identified by FDA as being in short supply as of July 2012.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 12 – Marilyn Tavenner


 Table 3: Fourteen HCPCS Codes With Complete AMP Data in the Fourth Quarter of
          2011 That Would Have Met CMS’s Criteria for Price Substitution
                                           Previous Comparisons of ASPs and AMPs

                                          Fourth          Third        Second           First
                      HCPCS              Quarter        Quarter        Quarter        Quarter
                      Code                  2011          2011           2011           2011
                      J1205                     X              X              X              X
                      J1650                     X              X              X              X
                      J9214                     X              X              X              X
                      J0713                     X              X              X
                      J1070                     X              X              X
                      J2501                     X              X              X
                      J2780                     X              X              X
                      J3303                     X              X              X
                      J7620                     X              X              X
                      J9045                     X              X                            X*
                      J0500                     X              X
                      J1742                     X              X
                      J2675                     X              X
                      J9211                     X              X
                     * In this quarter, the code exceeded the 5-percent threshold based on partial AMP data. 

                     Source: OIG analysis of ASP and AMP data from the first through the fourth 

                     quarters of 2011.



Of the 63 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for 10 Exceeded
the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 63 HCPCS
codes for which only partial AMP data were available. ASPs for 10 of these 63 HCPCS codes
(16 percent) exceeded the AMPs by at least 5 percent in the fourth quarter of 2011. A list of the
10 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix D.

For half of the HCPCS codes, missing AMPs likely had little influence on the outcome of the
pricing comparisons. Five of the ten HCPCS codes with partial AMP data continued to exceed
the threshold when we accounted for missing AMPs, suggesting that the pricing comparisons for
these codes were accurately capturing underlying market trends even though AMP data were not
available for the full set of NDCs. Because missing AMPs likely had little influence on the
pricing comparison results for these five HCPCS codes, price substitutions may be legitimately
warranted in these cases. ASPs for four of these five HCPCS codes repeatedly exceeded the
5-percent threshold in either two consecutive or three of four quarters.

For the remaining 5 of 10 HCPCS codes, ASPs no longer exceeded the AMPs by at least
5 percent in the fourth quarter of 2011, suggesting that these codes initially exceeded the



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 13 – Marilyn Tavenner


threshold because of missing AMPs rather than a genuine pricing disparity between the ASPs
and AMPs.

Pricing Comparisons Could Not Be Performed on 48 Drug Codes Because No AMP Data
Were Available
For 48 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 199 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2011, Medicare allowances for these 48 codes totaled $337 million.37

Manufacturers for 8 percent of the NDCs without AMP data (16 of 199) participated in the
Medicaid drug rebate program as of the fourth quarter of 2011 and were therefore generally
required to submit AMP data for their covered outpatient drugs.38, 39, 40

Manufacturers for the remaining 183 of 199 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

When Congress established ASP as the basis for Medicare Part B drug reimbursement, it also
provided a mechanism for ensuring that the new reimbursement methodology did not result in
excessive payments. Specifically, Congress mandated that OIG monitor ASPs by comparing
them with AMPs and widely available market prices and directed CMS to lower reimbursement
for certain drugs based on OIG’s findings. Since the ASP payment methodology took effect in
January 2005, OIG has fulfilled its responsibility to monitor ASP-based payment amounts by
issuing 25 comparisons between ASPs and AMPs, each of which identified Part B drugs that
would have been eligible for price reductions under the law. However, CMS has yet to lower
reimbursement in response to OIG’s findings and recommendations.

In this current report, we identified 39 HCPCS codes that exceeded the threshold for price
adjustment in the fourth quarter of 2011. Of these, 29 had complete AMP data (i.e., AMP data
for every drug product that CMS used to establish reimbursement amounts). If reimbursement
amounts for all 29 codes had been based on 103 percent of the AMPs in the second quarter of
2012, Medicare would have saved an estimated $4.6 million in that quarter alone. Under CMS’s
proposed price substitution policy, reimbursement amounts for 14 of the 29 HCPCS codes would
have been lowered to 103 percent of the AMP, thereby saving Medicare and its beneficiaries
37
   Of the 48 HCPCS codes with no associated AMP data, one was not listed in the 2011 PBAR file. As a result, this code 

was not included in the total Medicare allowances for the year. 

38
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted CMS’s 

Participating Drug Companies, accessed at http://www.cms.gov on April 30, 2012. 

39
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient drugs, 

there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For example, a 

manufacturer may not have been required to submit an AMP if the drug product had been terminated and there was no 

drug utilization during the quarter.

40
   These 16 NDCs were crosswalked to 12 HCPCS codes.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 14 – Marilyn Tavenner


$4.2 million. The remaining 10 of 39 HCPCS codes also exceeded the threshold for price
adjustment in the fourth quarter of 2011 but did so based on partial AMP data. Although CMS’s
price substitution policy will not apply to codes with partial AMP data, price reductions may be
legitimately warranted for half of the 10 codes because missing AMPs likely had little influence
on the pricing comparison results. We could not compare ASPs and AMPs for 48 HCPCS codes
because AMP data were not submitted for any of the NDCs that CMS used to calculate
reimbursement. Manufacturers for 8 percent of these NDCs had Medicaid drug rebate
agreements and were therefore generally required to submit AMPs.

Although we do not make recommendations in this report, some of OIG’s previous pricing
comparisons have contained recommendations, which we continue to support.41 In response to
OIG’s most recent report with recommendations, CMS expressed uncertainty about the payoff
associated with quarterly pricing comparisons, stating that the proposed price substitution policy
will generate minor savings for the program. Although we acknowledge that the savings from
any single OIG report may be modest relative to total expenditures for Part B drugs, significant
savings would have accrued had CMS taken action immediately after OIG issued its first pricing
comparison. In the long term, savings achieved through price substitution could reduce waste
and conserve taxpayer funds at a time when increased focus has been placed on rising health care
costs and fiscal responsibility.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-03-12-00410 in all correspondence.




41
  For example, OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of 2007,
OEI-03-08-00450, December 2008; OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An
Overview of 2008, OEI-03-09-00350, February 2010; OIG, Comparison of Average Sales Prices and Average
Manufacturer Prices: An Overview of 2009, OEI-03-10-00380, April 2011; and OIG, Comparison of Average Sales
Prices and Average Manufacturer Prices: An Overview of 2010, OEI-03-11-00410, November 2011. These reports are
available online at https://www.oig.hhs.gov.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 15 – Marilyn Tavenner


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



      Volume-Weighted ASP            Sum of (ASP for NDC * Number of NDCs Sold)
       for Dosage Amount  =
         of HCPCS Code         Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 16 – Marilyn Tavenner


APPENDIX B

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Fourth Quarter of 2011

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 508 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 396 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 396 HCPCS codes represented
1,956 NDCs. For 30 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 30 NDCs were
crosswalked to 13 HCPCS codes. We did not include these 13 HCPCS codes (232 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,724 NDCs, we calculated a volume-weighted
AMP for each of the remaining 383 HCPCS codes consistent with CMS’s methodology for
calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 64 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
64 HCPCS codes represented a total of 989 NDCs. AMP data were either missing or unavailable
for 273 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs.42

We calculated converted AMPs for each of the remaining 716 NDCs. For 8 of the
716 NDCs, we could not identify the amount of the drug reflected by the ASP and therefore
could not calculate a converted AMP. We removed these 8 NDCs from our analysis.43 As a
result, one HCPCS code no longer had any NDCs with AMP data. Therefore, this HCPCS code
was removed from our analysis.

Using the converted AMPs for the remaining 708 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 63 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




42
   Although AMP data for these 273 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS. Volume-weighted ASPs
remained the same, regardless of the availability of AMP data.
43
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS codes,
provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of HCPCS codes
with complete AMP data, in which we removed not only the NDCs with problematic AMP conversions, but also the
corresponding HCPCS codes.


Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 17 – Marilyn Tavenner


HCPCS codes with no AMP data. For 48 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 48 HCPCS codes
represented 199 NDCs.




Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 18 – Marilyn Tavenner


APPENDIX C

Twenty-Nine Drug Codes With Complete Average Manufacturer Price Data That
Exceeded the 5-Percent Threshold in the Fourth Quarter of 2011

         Drug
         Code                                                   Short Description          Drug Code Dosage
         J0456                                               Azithromycin injection                     500 mg

         J0500                                                Dicyclomine injection                       20 mg

         J0515                                       Benztropine mesylate injection                        1 mg

         J0595                                        Butorphanol tartrate injection                       1 mg

         J0610                                          Calcium gluconate injection                       10 mL

         J0670                                           Mepivacaine HCl injection                        10 mL

         J0713                                                Ceftazidime injection                     500 mg

         J0770                                      Colistimethate sodium injection                     150 mg

         J1070                                     Testosterone cypionate injection                     100 mg

         J1205                                      Chlorothiazide sodium injection                     500 mg

         J1650                                        Eenoxaparin sodium injection                        10 mg

         J1742                                           Ibutilide fumarate injection                      1 mg

         J1756                                                Iron sucrose injection                       1 mg

         J1955                                               Levocarnitine injection                          1g

         J2501                                                 Paricalcitol injection                     1 mcg

         J2675                                               Progesterone injection                       50 mg

         J2780                                              Ranitidine HCl injection                      25 mg

         J3303                                Triamcinolone hexacetonide injection                         5 mg

         J3411                                               Thiamine HCl injection                     100 mg

         J7620                  Albuterol and ipratropium bromide, noncompounded                 2.5 mg/0.5 mg

         J7631                  Cromolyn sodium, noncompounded, unit dose form                            10 mg

         J8510                                                        Busulfan, oral                       2 mg

         J9045                                                 Carboplatin injection                      50 mg

         J9065                                                  Cladribine injection                       1 mg

         J9211                                              Idarubicin HCl injection                       5 mg

         J9214                                           Interferon alfa-2b injection             1 million units

         J9280                                                  Mitomycin injection                        5 mg

         J9293                                           Mitoxantrone HCl injection                        5 mg

         Q0167                                                     Dronabinol, oral                      2.5 mg

        g=gram, mcg=microgram, mg=milligram, mL=milliliter
        Source: Office of Inspector General analysis of fourth-quarter 2011 average sales price and average
        manufacturer price data, 2012.



Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
Page 19 – Marilyn Tavenner


APPENDIX D

Ten Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Fourth Quarter of 2011


         Drug
         Code                                                    Short Description          Drug Code Dosage
         90586                                      Bcg vaccine, for intravesical use                    1 each

         J0171                                       Adrenalin epinephrine injection                     0.1 mg

         J1190                                           Dexrazoxane HCl injection                      250 mg

         J2700                                             Oxacillin sodium injection                   250 mg

         J2930*                                        Methylprednisolone injection                     125 mg

         J9031                                          Bcg live intravesical vaccine                    1 each

         Q0162*                                                   Ondansetron, oral                        1 mg

         Q0163*                                          Diphenhydramine HCl, oral                        50 mg

         Q0164*                                      Prochlorperazine maleate, oral                        5 mg

         Q0165*                                      Prochlorperazine maleate, oral                       10 mg

        mg=milligram

        *These drug codes continued to exceed the 5-percent threshold after the Office of Inspector General (OIG)   

        accounted for missing average manufacturer prices (AMP). 

        Source: OIG analysis of fourth-quarter 2011 average sales price and AMPs, 2012.





Comparison of Fourth-Quarter 2011 ASPs and AMPs (OEI-03-12-00410)
